    LEGAL SERVICES CORPORATION
    OFFICE OF INSPECTOR GENERAL




 INTERIM REPORT ON MANAGEMENT
OVERSIGHT OF GRANTEES – OFFICE
OF COMPLIANCE AND ENFORCEMENT

          Report No. AU06-02

             March 2006



             www.oig.lsc.gov
                                             MEMORANDUM



TO:             Helaine Barnett
                President

FROM:           Ronald D. Merryman
                Acting Assistant Inspector General for Audit

SUBJECT:        Interim Report On Management Oversight Of Grantees – Office Of
                Compliance And Enforcement

DATE:           March 31, 2006


Attached is our final report on the audit of OCE’s oversight of grantees. Your comments
on the draft of this report are included at Appendix II.

The report makes 12 recommendations concerning improvements to OCE’s program
operations. Because of LSC’s current efforts to implement the Strategic Directions 2006 -
2010 document, the OIG considers all recommendations as closed. However, the OIG will
review management’s implementation of the Strategic Directions initiatives to ensure that
stated actions are reasonably taken.

If you have any questions or need additional information, please contact me on extension
1663. Thank you and your staff for the cooperation and courtesy extended to the OIG
auditors.

Attachment

cc::    Victor Fortuno
        Vice President for Legal Affairs/General Counsel/Corporate Secretary

        Karen Sarjeant, Vice President
        Programs, Operations and Compliance
    LEGAL SERVICES CORPORATION
    OFFICE OF INSPECTOR GENERAL




 INTERIM REPORT ON MANAGEMENT
OVERSIGHT OF GRANTEES – OFFICE
OF COMPLIANCE AND ENFORCEMENT

          Report No. AU06-02

             March 2006



             www.oig.lsc.gov
                                     TABLE OF CONTENTS



EXECUTIVE SUMMARY ........................................................................... 1

INTRODUCTION ....................................................................................... 2

BACKGROUND......................................................................................... 2

OBJECTIVES, SCOPE AND METHODOLOGY........................................ 4
 Scope Limitation ..................................................................................... 5

OVERALL EVALUATION ......................................................................... 5

SUMMARY OF MANAGEMENT COMMENTS ......................................... 5

SUMMARY OF EVALUATION OF MANAGEMENT COMMENTS ........... 5

AUDIT RESULTS ...................................................................................... 6

A. DUPLICATION OF OVERSIGHT ACTIVITIES ..................................... 6

B. MEASURES ......................................................................................... 7
   Outcome Measures .............................................................................. 7
      Recommendation 1 ......................................................................... 8
      Management Comments -- Recommendation 1.............................. 8
      Evaluation of Management Comments ........................................... 8

         Recommendation 2 ......................................................................... 8
         Management Comments -- Recommendation 2.............................. 8
         Evaluation of Management Comments ........................................... 8

    Cost of On-Site Reviews ...................................................................... 9
      Recommendation 3 ......................................................................... 9
      Management Comments -- Recommendation 3.............................. 9
      Evaluation of Management Comments ......................................... 10

C. OCE PRACTICES AND PROCEDURES ........................................... 10
    On-Site Grantee Compliance Reviews ............................................ 10

       1. Selection of Grantees for On-Site Reviews................................. 10
       2. Case Sampling............................................................................ 12
       3. CSR Error Rates and Case Service Review/Case
           Management System (CSR/CMS) Reviews............................. 12



                                                        i
Recommendation 4.......................................................................... 13
Management Comments -- Recommendation 4 .............................. 13
Evaluation of Management Comments ............................................ 13

Recommendation 5.......................................................................... 13
Management Comments -- Recommendation 5 .............................. 13
Evaluation of Management Comments ............................................ 13

Recommendation 6.......................................................................... 14
Management Comments -- Recommendation 6 .............................. 14
Evaluation of Management Comments ............................................ 14

Leveraging Oversight Information.................................................... 14

1. Summary of Review Results ....................................................... 14
2. On-Site Training at Grantees ...................................................... 15

Recommendation 7.......................................................................... 15
Management Comments -- Recommendation 7 .............................. 16
Evaluation of Management Comments ............................................ 16

Recommendation 8.......................................................................... 16
Management Comments -- Recommendation 8 .............................. 16
Evaluation of Management Comments ............................................ 16

Recommendation 9.......................................................................... 17
Management Comments -- Recommendation 9 .............................. 17
Evaluation of Management Comments ............................................ 17

Reporting of Results from On-Site Reviews..................................... 17

1. Significance of Findings .............................................................. 17
2. Reporting .................................................................................... 17
3. Timeliness of Reports ................................................................. 18

Recommendation 10........................................................................ 19
Management Comments -- Recommendation 10 ............................ 19
Evaluation of Management Comments ............................................ 19

Recommendation 11........................................................................ 19
Management Comments -- Recommendation 11 ............................ 20
Evaluation of Management Comments ............................................ 20

Recommendation 12........................................................................ 20
Management Comments -- Recommendation 12 ............................ 20
Evaluation of Management Comments ............................................ 20



                                                  ii
APPENDIX I -- Management Comment—Analysis

APPENDIX II – Management’s Response to Draft Audit Report




                               iii
                            EXECUTIVE SUMMARY


What OIG Found

The effectiveness and efficiency of OCE operations need to be improved. OCE’s
on-site reviews of grantee compliance largely duplicate the compliance work
conducted annually by the IPAs and overseen by the OIG. OCE has no
outcome-based measures to ensure that its oversight programs are effectively
and efficiently achieving organizational goals. Finally, because OCE does not
have outcome-based goals, its processes and procedures may not be effectively
and efficiently structured.

What OIG Recommends

The OIG recommended that OCE better define its mission and develop outcome
measures based on the better-defined mission statement. The OIG also
recommended that improvements be made to OCE’s internal processes to
improve efficiency and effectiveness of operations. The issue of duplication will
be addressed in a capping report after OIG has completed reviews of other LSC
entities charged with oversight of grantees.

How Management Responded

LSC stated that it is committed to the efficient and effective management of the
Corporation, including the compliance work of the Office of Compliance and
Enforcement. They also stated that LSC is currently engaged in a review and
planning process as part of the development of Strategic Directions 2006-2010.
In addition, LSC management stated that prior to receipt of the recommendations
of the draft report, LSC had begun to consider many of the issues raised therein.




                                       1
                                       INTRODUCTION

In January 2005, the Office of Inspector General (OIG) announced plans to
conduct an audit of the Legal Services Corporation’s (LSC) oversight of grantees.
The objective of this audit is to evaluate the efficiency and effectiveness of LSC’s
oversight program(s), including the operations of the Office of Compliance &
Enforcement (OCE), the Office of Program Performance (OPP), and the Office of
Information Management (OIM), as well as the role of the Office of Inspector
General (OIG) and Independent Public Accountants (IPAs).

Because of the number of different program offices involved in the oversight of
grantees and the length of time anticipated for each review, we are issuing
interim reports as we review each office. At the conclusion of our audit, we plan
to issue a capping report to address any overarching issues not specifically
addressed in our reviews of each office.


                                       BACKGROUND

Prior to 1996, compliance monitoring of grantees had been done on a cyclical
basis by LSC staff. This was accomplished by on-site visits to grantee offices by
teams that included attorneys, accountants and management consultants.
These visits included assessments of both fiscal and regulatory compliance
issues.

Section 1009(c) of the LSC Act requires each grantee to undergo an annual
financial statement audit conducted in accordance with Generally Accepted
Auditing Standards. Prior to 1996, these audits were conducted by Independent
Public Accountants and the audited financial statements were submitted by
grantees to LSC for review by LSC staff.

This changed in 1996 as a result of congressional action. In lieu of the audits
required by section 1009(c) of the LSC Act, the 1996 Appropriations Act1

1
  Section 509(a) of the 1996 appropriations act, Pub. L. 104-134, 110 Stat. 1321 (1996), provides
as follows:

                An audit of each grantee receiving financial assistance from LSC shall be
                conducted in accordance with Generally Accepted Government Auditing
                Standards (GAGAS) and guidance established by OIG and shall report whether
                    (1) the financial statements of the grantee present fairly its financial position
                        and the results of its financial operations in accordance with Generally
                        Accepted Accounting Principles (GAAP)
                    (2) the grantee has internal control systems to provide reasonable
                        assurance that it is managing funds, regardless of source, in compliance
                        with Federal laws and regulations and
                    (3) the grantee has complied with Federal laws and regulations applicable to
                        funds received, regardless of source.


                                                 2
requires each grantee to undergo an annual audit by an IPA that includes an
audit of compliance with laws and regulations. These audits are to be conducted
in accordance with Government Auditing Standards and guidance established by
the OIG.

To provide this guidance, the OIG issued the Audit Guide for Recipients and
Auditors (Audit Guide).2 The Audit Guide includes the Compliance Supplement
for Audits of LSC Recipients (Compliance Supplement) covering 24 LSC
regulations. The Compliance Supplement provides a brief summary of each
regulation and details suggested audit procedures for IPAs to follow in testing
grantee compliance with the regulations. Since 1996, Audit Bulletins have been
issued by the OIG as needed to revise, update, and clarify previous OIG audit
guidance. The 1996 Appropriations Act also clarified that the OIG is authorized
to conduct on-site monitoring, audits, and inspections necessary for
programmatic, financial, and compliance oversight of grantees.

OCE ceased conducting the on-site compliance assessment of grantees, and
was reorganized to conduct other activities such as complaint investigations and
the grantee audit follow-up program.3 Beginning in 1999, at the time of the
publicized case reporting problem of some LSC grantees, OCE began
conducting on-site case service reviews (CSR) of grantees. With the 2001 LSC
appropriation, Congress directed LSC to hire at least seven investigators for
OCE “to investigate field grantees’ compliance with the regulations grantees
agreed to abide by when accepting Federal funding.”4 Since then, OCE has
increased the size of its staff and has expanded its work to encompass the LSC
regulations currently assessed on an annual basis by the IPAs.

OCE’s current staff totals 15 members, comprised of one Director, 10 attorneys,
two fiscal analysts and two administrative assistants. OCE’s annual budget for
FY 2004 was $2.57 million supporting a staff of 18 individuals. OCE’s annual
budget for FY 2005 was $2.38 million supporting a staff of 16 individuals.




2
 The Audit Guide provides a uniform approach for audits of LSC grantees and describes
grantees’ responsibilities with respect to the audit. Pursuant to Section 509(a) of the 1996
Appropriations Act, the Audit Guide sets forth that audits of grantees are to be performed in
accordance with Government Auditing Standards issued by the Comptroller General of the U.S.
The Audit Guide also requires these audits to comply with Office of Management and Budget
(OMB) Circular A-133, Audits of Institutions of Higher Education and Other Nonprofit
Organizations
3
  The purpose of the grantee audit follow-up process is to ensure that findings and
recommendations relating to grantee operations are effectively resolved and the corrective action
is completed and reported in a timely manner.
4
    H. Conf. Rep. 106-1005.


                                                3
                    OBJECTIVES, SCOPE AND METHODOLOGY

Our overall objective was to determine whether OCE’s oversight of grantees was
effective and efficient. Specifically, we determined whether there was any
duplication by OCE of responsibilities with the compliance work conducted by the
IPAs.5 We evaluated how LSC measures the success of OCE’s stated mission
of reviewing grantee compliance with the LSC Act and regulations. Finally, we
determined whether OCE’s internal processes and procedures to review grantee
compliance were efficient and effective.

To accomplish our objective, we reviewed applicable legal authorities defining
the roles and responsibilities of the OIG and LSC management. We interviewed
management officials and OCE staff regarding grantee compliance activities. We
reviewed memoranda, internal manuals, and schedules provided by OCE and
OIM, and reviewed information available electronically at the LSC and OIG
websites. We also reviewed materials pertaining to LSC’s oversight of grantee
compliance, including OCE grantee reports (both draft and final), Audit
Information Management System (AIMS) Recipient History Reports, and grantee
audited financial statements. Our audit primarily focused on grantee oversight
activities that potentially duplicated the work conducted by the IPAs and therefore
focused only on OCE activities dealing with the routine review6 of grantee
compliance with LSC requirements.7

From the OCE reports provided, we analyzed the types, frequency and
significance of the findings as presented in each report. We accepted the
findings as described in the reports.8

The audit was conducted from January 2005 through October 2005. Documents
reviewed pertained to the period November 1996 through July 2005, with
particular emphasis on reviews conducted by OCE during the period October 1,
2003 through December 31, 2004. Our work was conducted exclusively at LSC
headquarters in Washington, DC.

5
 As other LSC functions are reviewed, we will continually assess if any duplication of oversight
exists among all offices providing oversight.
6
 OCE considers several types of trips as compliance reviews. These trips mostly include
CSR/CMS reviews, follow up visits, and trips for training grantee staff.
7
  OCE handles a number of other responsibilities that we did not review as part of this audit.
Examples of these other responsibilities include, but not limited to, responding to Congressional
and White House inquiries; reviewing public complaints, approving major expenditures by
recipients, and reviewing and approving recipient subgrant agreements.
8
  Our review was limited to the findings as presented in the respective OCE report. We did not
review any documentation maintained by OCE in their files supporting the finding.


                                                4
The OIG performed the audit in accordance with Government Auditing Standards
(2003 revision) established by the Comptroller General of the United States and
under authority of the Inspector General Act of 1978, as amended and Public
Law 108-477, incorporating by reference Public Law 104-134.

Scope Limitation. Government Auditing Standards require that audit work be
free both in fact and appearance of any impairment to independence. If the audit
work cannot be declined because of legislative requirements or other reasons,
the impairment should be reported in the scope section of the audit report. The
OIG has been legislatively assigned the responsibilities of providing guidance,
monitoring the work, and evaluating the performance of the IPAs who annually
conduct the financial, internal control, and compliance evaluations of each
grantee. In addition, the legislation authorizes the OIG to conduct on-site
monitoring, audits, and inspections necessary for programmatic, financial, and
compliance oversight. Therefore, in accomplishing the first specific objective in
this audit of evaluating whether or not OCE is performing work duplicative of the
OIG’s compliance oversight program, a real or perceived impairment to
independence may exist and is being disclosed. However, in the opinion of the
OIG, no impairment to independence exists relating to the remaining two specific
objectives – OCE’s measurement system and the processes and procedures
used to review grantee compliance.


                            OVERALL EVALUATION

The effectiveness and efficiency of OCE operations need to be improved. OCE’s
on-site reviews of grantee compliance largely duplicate the compliance work
conducted annually by the IPAs and overseen by the OIG. OCE has no
outcome-based measures to ensure that its oversight programs are effectively
and efficiently achieving organizational goals. Finally, because OCE does not
have outcome-based goals, its processes and procedures may not be effectively
and efficiently structured.


                 SUMMARY OF MANAGEMENT COMMENTS

While not agreeing with all recommendations, the President of LSC stated that
management is committed to the efficient and effective operation of the
Corporation, including the compliance work of the OCE. Also, as noted in the
responses to the recommendations, LSC stated that it is currently engaged in a
review and planning process as part of the development of the Strategic
Directions 2006-2010. In addition, the President stated that previous to receipt of
the recommendations of the draft report, LSC had begun to consider many of the
issues raised in the report. LSC stated that it is continuing its review and
planning process and will respond more fully to the OIG’s analysis after the



                                        5
capping report is complete and after LSC’s planning process is complete. A
complete text of management comments can be found at Appendix II.


         SUMMARY OF EVALUATION OF MANAGEMENT COMMENTS.

While we do not believe that management comments address the intent of 6 of
the 12 recommendations contained in this report, the goals and strategies
contained in LSC’s Strategic Directions 2006-2010 document should directly or
indirectly address all significant recommendations in this report. On January 28,
2006, the LSC Board of Directors adopted LSC’s Strategic Directions 2006-2010.
This document outlines the Corporation's goals for the next five years and the
strategies to be used to achieve them. As we monitor the progress of LSC’s
implementation of the Strategic Directions document, we will ensure that the
conditions identified in this report are in fact addressed and done so in a timely
and efficient manner. Therefore, we consider all recommendations contained in
this report as closed. Our specific evaluation of management comments is
provided after each recommendation.

In addition to comments on each recommendation, management provided
additional comments in a separate section entitled “ANALYSIS” that addressed
two areas—Authority of LSC to conduct compliance reviews and the LSC
President’s and Board Chairman’s congressional testimony. Our evaluation of
management comments for each of these areas is presented at Appendix I
separate section of this report.


                                     AUDIT RESULTS

A. DUPLICATION OF OVERSIGHT ACTIVITIES

OCE’s on-site work related to grantee compliance largely duplicates the
compliance work conducted annually by the IPAs. The 1996 Appropriations Act
requires that the IPAs conduct annual audits of grantee compliance with
applicable laws and regulations in accordance with Government Auditing
Standards and guidance established by the OIG.9 The compliance work
conducted by OCE during its on-site reviews covers most of the LSC regulations
contained in the OIG’s Compliance Supplement used by IPAs in their audit work.
Because the IPAs do not review compliance with the CSR Handbook, OCE’s

9
 The applicable LSC OIG guidance in effect for audits of grantees with fiscal years ending
12/31/2004 or later is contained in the Audit Guide for Recipients and Auditors (November 1996),
Compliance Supplement for Audits of LSC Recipients (December 1998), Audit Bulletin 2005-01
(December 2004), Audit Bulletin 2001-01 (March 2001), Audit Bulletin 2000-01 (February 2000),
and Audit Bulletin 97-01 (November 1997). OIG audit guidance can be found at the OIG website
www.oig.lsc.gov



                                               6
work as it pertains to the recipients case statistic review is not duplicative of the
IPAs’ work.10

By having duplicative compliance review processes, both LSC and the grantees
are incurring additional costs without any measurable offsetting benefit, and
expending grantee staff time that likely could be used to serve more clients.

Audit Comment. Recommendations addressing duplication of oversight will be
addressed in OIG’s capping report once reviews of other LSC offices involved in
oversight activities are complete.

B. MEASURES

We could not determine how OCE’s effectiveness and efficiency in reviewing
grantee regulatory compliance were measured. Specifically, outcome-based
measures indicating OCE’s impact on compliance were not established. In
addition, a system to monitor costs associated with each visit was not developed.
Measures indicating both the impact and cost of activities would help ensure that
the oversight program is achieving the desired outcome at a reasonable cost,
and would provide management with the information needed to make any
necessary adjustments to its oversight program.

Outcome Measures. LSC has not established outcome measures. The only
stated measure of the success of OCE we found in internal memoranda, budget
requests, or Congressional testimony was the number of trips planned and taken.
For example, the April 1, 2004 testimony submitted by the Chairman of LSC’s
Board and the LSC President to the House Appropriations Committee,
Subcommittee on Commerce, Justice, State, the Judiciary, and Regulated
Agencies states, “In 2003, OCE performed 39 on-site reviews, surpassing its
goal of 32 reviews annually.” No other goals for OCE were stated or quantified in
the testimony or anywhere else. We could find no measures of the outcome of
these visits, or whether or not grantee compliance was improving at the site
visited or nationwide. We believe that this occurred partly because the relevant
stated mission of OCE – “…to review recipient compliance with the LSC Act,
regulations, instructions, guidelines and grant assurances”11 – does not indicate
any outcome.       The mission statement simply requires that OCE review
compliance. In our opinion, “to review” is a means to an end rather than an end
in itself.



10
  The OIG understands that any case file sampling to ensure adherence to the CSR Handbook
will by definition include compliance testing with the LSC Act and regulations. However, the work
the OIG refers to here relates to the compliance and fiscal review done by OCE outside of the
case file sample.
11
     The LSC Website located at www.lsc.gov.



                                                7
As a result, LSC management has no objective, quantifiable data on the
effectiveness of OCE’s on-site review process. The lack of meaningful outcome
measures may have contributed to the conditions detailed later in this report.

Recommendations. The LSC President should:

Recommendation 1.      Better define the mission of OCE in regard to its
compliance work; and

Management Comments -- Recommendation 1. LSC management stated:

      “LSC is in process of adopting Strategic Directions 2006-2010 for
      the Corporation. The mission and goals in that draft document
      clearly define expectations for each of the Corporation’s offices,
      including OCE.      When the Strategic Directions document is
      adopted by the LSC Board in early 2006, each office, including
      OCE, will be reviewing prior statements of mission, goals, and
      objectives to assure consistency with the Board-approved mission
      for the organization.”

Evaluation of Management Comments. Management comments are responsive
to the finding and recommendation. Closed.

Recommendation 2. Develop an outcome based measurement system to
determine whether OCE is accomplishing its mission.

Management Comments -- Recommendation 2. LSC management stated:

      “Outcome measures are inherently built into the compliance
      reporting procedures followed by LSC programs. For instance,
      current measures in place are timetables, assurances and reports.
      Other measures under consideration in the strategic directions
      process include the percent of in-compliance findings from OCE
      visits, and the timeliness and degree of resolution of OCE
      corrective action notices. LSC will continue to develop these
      outcome measures for compliance purposes. As part of its
      development of Strategic Directions 2006-2010, LSC is considering
      a range of additional outcome measures.”

Evaluation of Management Comments. Management comments do not
specifically address the recommendation. The recommendation is to develop
performance measures for OCE based on OCE’s new mission statement.
Management comments appear to be more about performance measures for
grantees, not OCE. However, the actions that will be taken as a result of
implementing LSC’s new Strategic Directions initiatives, which include




                                      8
performance measures, should address the intent of this recommendation.
Therefore, the OIG considers this recommendation closed.


Cost of On-Site Reviews. A system was not in place to track all costs associated
with OCE activities related to on-site reviews. Therefore, LSC management was
unable to calculate the total cost of the individual OCE visits conducted during
the period of review or to assess the cost efficiency of its on-site activities.

OCE does not maintain staff timekeeping. Consequently, we were unable to
determine the cost of staff and management time used to complete each on-site
review from commencement to issuance of the final report. OCE staff members
we spoke with were unable to provide estimates of the amount of time devoted to
any specific visit.12

OCE does, however, track certain costs associated with each on-site                         review.
These costs include travel, per diem, lodging, and consultant use.13 For                    each of
the OCE reviews conducted during the period of review, we were                              able to
summarize these costs. These costs ranged from a low of $65 (for a                          training
visit) to a high of $46,466.

As a result, management had no method to determine the cost of each visit or
have adequate data to evaluate the efficiency of operations.

Recommendation. The LSC President should:

Recommendation 3. Instruct OCE to develop a system to track all costs
(including OCE staff and management time) associated with OCE activities
related to on-site reviews and training.

Management Comments -- Recommendation 3. LSC management stated:

        “All costs are being tracked for OCE compliance work. The total
        cost of OCE compliance work is available through the LSC budget
        process and LSC can compare the amount of compliance work
        done and the cost of doing such work. No business necessity
        exists for keeping individual time records simply to track the cost of
        each visit. The administrative burden of such a system is not worth
        the minimal value gained.”



12
  OCE staff explained that it was difficult to estimate time devoted to any one specific visit due to
their uniqueness and the inherent overlap in report writing and preparation for subsequent visits.
13
  The cost for the use of consultants includes their daily contract rate multiplied by the number of
days worked plus travel, per diem and lodging.


                                                  9
Evaluation of Management Comments. Management comments do not address
the intent of the recommendation. While total costs for all of OCE work is
handled through the budget process, there is no system in place to break down
the total cost of OCE by the various functions performed by OCE. As a result,
management does not know the cost (including personnel costs and
management costs) of the activities related to on-site reviews and training visits.
We disagree that no business reason exists for keeping individual time records
simply to track the cost of each visit. Without knowing the amount of time
expended (personnel cost) for each visit, management can not adequately
assess the economy or efficiency of headquarters’ operations.                Also,
management has no empirical data to help assess whether one team is more
efficient than another or if economies can be achieved in the cost of OCE visits
based on the amount of funding a grantee receives, the size of the service area,
how many cases a grantee processes, or the predominant type of service a
grantee provides. Also, in order to conduct the reviews that are suggested by the
Strategic Directions document, management would have to track costs, of which
personnel cost is the largest single cost. Specific management actions taken will
be assessed by the OIG when evaluating management’s implementation of the
Strategic Directions document.           Therefore, the OIG considers this
recommendation closed.


C. OCE PRACTICES AND PROCEDURES

Because OCE does not have outcome-based measures or a mission statement,
we were unable to determine whether its processes and procedures are
effectively and efficiently structured. During the course of our audit, however, we
were able to identify certain OCE practices and procedures relating to its on-site
compliance reviews of grantees that need to be improved.

On-Site Grantee Compliance Reviews. We found no clear indication as to the
outcome OCE intends to achieve with on-site visits. The process for selecting
grantees for on-site CSR/CMS review was not well defined. Sampling methods
were not structured to provide a reliable assessment of the grantee’s overall
compliance with regulations. Finally, though called a CSR/CMS review, OCE
does not report a reliable CSR error rate nor does OCE validate the grantee’s
self-reported CSR error rate.14

1. Selection of Grantees for On-Site Reviews. OCE’s process for selecting
grantees for a CSR/CMS on-site review is not well defined. In testimony
submitted to Congress in April 2004, LSC stated that OCE’s selection process

14
  The error rate is a calculation provided by the Office of Information Management (OIM) based
on the number of errors reported to LSC by the grantee during its annual self inspection process.
The self inspection process requires grantees to complete a checklist for each case file selected
as part of a designated number of cases sampled.



                                               10
was “based on a combination of a number of criteria, including complaints of non-
compliance, referrals from the Office of Inspector General, a considerable
change from one year to the next in Case Service Reports, and other indications.
Since 2001, LSC has also had the authority to conduct random compliance
reviews.” While subject to random compliance reviews, grantees have not been
selected on a random basis. Rather, OCE seemingly can arbitrarily include or
exclude any grantee from a compliance review.

OCE appears to operate under a process that envisions an OCE on-site
compliance visit to every LSC grantee by some future date. Nevertheless, there
is no established cycle for grantee on-site compliance reviews by OCE and
according to OCE management, there is no expectation to implement one.
According to OCE management, grantees are selected for on-site reviews based
on a number of various factors including:

            -   Time lapse since last visit by OCE,
            -   Complaints, including severity of the complaint,
            -   Grantee error rate reported in the CSR self-inspection.

These factors do not address the dollar amount of the grant or the number of
cases reported by the grantee to LSC and do not translate into any type of
comprehensive or random selection process.

OCE provided us with the rationale it used to select the grantees visited during
the period covered by our review. For each grantee, OCE detailed grantee
specific information on the three factors listed above. However, because the
information on the three factors was so general, we asked OCE to provide us the
list of grantees that satisfied these factors but were not selected for a compliance
review by OCE for one reason or another. OCE was unable to provide us such a
list. When asked, OCE management responded that this type of recordkeeping
is not maintained.

As a result of not having a well defined and documented selection process, we
were unable to determine whether OCE’s practices and procedures are efficient
and effective. In addition, the lack of a defined process leaves LSC vulnerable to
criticism that the selection process is subject to bias and that it is inefficient and
wasteful.15

15
   For example, during the period covered by our review, OCE conducted a follow-up review to
one of LSC’s smallest grantees, located in Honolulu, Hawaii. This grantee, reporting only 63
closed cases for FY 2003, had originally been visited on a CSR/CMS review in April 2003. Ten
months after that visit, in February 2004, OCE conducted a follow-up visit to the same grantee
with two staff members for 3 days which cost $5,027 in travel and lodging expenses alone. Six
months later in August 2004, OCE conducted a CSR/CMS review of a different grantee in
Honolulu, Hawaii, located only 6 city blocks from the grantee previously visited. This third visit to
Hawaii consisted of seven OCE staff members and three contractors for a week and cost $27,616
in travel and lodging expenses. Three different trips were undertaken to visit the two grantees in
Hawaii, with two of these trips costing over $32,000 in travel and lodging expenses. At the same


                                                11
2. Case Sampling. OCE’s current case sampling methods do not provide results
that are reliable for assessing each grantee’s compliance. The sampling
methods appear to be structured to find evidence of noncompliance rather than
assessing the level of compliance or validating the grantee’s self-reported CSR
error rate. Our analysis showed that the number of cases sampled varied
considerably from grantee to grantee with no clear explanation provided in the
report as to how the sample was selected or the bases for the size of the sample.
For example, our review of the OCE reports provided revealed case sample
sizes ranged from a low of 185 to a high of 1,000 cases. As explained by OCE
staff, the case sampling methodology generally utilized by OCE involves the use
of a random number generator, targeted sample subpopulations with expected
errors, and team leader judgment.16 This does not constitute a statistically valid
sample methodology; therefore the results cannot be projected against the total
population of grantee cases. Furthermore, the sample may include cases from
different years and as such the results may not be indicative of current practices.
The errors discovered are not attributed to a specific sampling methodology and
there is no attempt to statistically project the results against the universe from
which the sample was selected. As a result, samples may be larger than
necessary, only serve to confirm specific instances of non-compliance in areas
already apparent to OCE team members, and place additional burdens on the
limited staff resources of the grantee without providing any reliable data on the
extent of grantee compliance.

3. CSR Error Rates and Case Service Review/Case Management System
(CSR/CMS) Reviews. OCE has indicated that one of the main criteria used to
select a grantee for a CSR/CMS review is the CSR error rate reported in the
grantee’s self-inspection. OCE, however, does not structure its review to validate
the error rate. While OCE may calculate an error rate based on its case
sampling as a result of their review, this information is not detailed in their
reports. Even if OCE calculated the error rate and included this information in its
reports, the case samples utilized are not statistically valid; thus the information
cannot be relied on to determine the validity of the CSR error rate previously
reported to LSC by the grantee.

Recommendations. The LSC President should instruct OCE to:

time, some of the 10 largest grantees have not been visited at all or have not received a full
CSR/CMS review during the 6 years that OCE’s compliance program has been in place. This
situation leaves LSC open to criticism and could be avoided if OCE had a defined and efficient
and effective selection process.

16
  The team leader is permitted to select additional cases while on-site, thereby increasing the
case sample size even more. As we understand the selection process, many of these additional
cases are selected to confirm an already apparent deficiency in the grantee’s case processing
system.


                                               12
Recommendation 4. Develop and document a selection process that ensures
that grantees are reviewed over a reasonable period of time and that meets
OCE’s overall mission requirements;

Management Comments -- Recommendation 4. LSC management stated:

      “LSC agrees that all grantees should be reviewed over a
      reasonable period of time. As part of its development of Strategic
      Directions 2006-2010, LSC is engaging in a fresh look at its
      selection process for program visits. Many factors are considered
      in the selection process and LSC is considering the relative
      importance of each factor in concert with LSC’s clear statutory and
      regulatory obligations.”

Evaluation of Management Comments. Management comments are responsive
to the finding and recommendation. Closed.


Recommendation 5. Develop a case sampling methodology that will efficiently
and effectively permit OCE to obtain reliable data in support of its mission goal;
and

Management Comments -- Recommendation 5. LSC management stated:

      “The OIG recommendation with respect to case sampling is useful
      if LSC needs to verify a grantee’s self-reported error rate. LSC will
      review this need and determine to what extent that is a priority. As
      far as reviewing cases at the grantee level, LSC affirms that, as
      stated by the OIG, “The sampling methods appear to be structured
      to find evidence of non-compliance rather than assessing the level
      of compliance…” In monitoring grantees, LSC seeks to determine
      whether or not there is non-compliance with LSC regulations, and,
      if so, to have it corrected. Determining the exact level of non-
      compliance, whether it is 2% or 3%, has little value for compliance
      purposes.”

Evaluation of Management Comments.              Management comments are not
responsive to the intent of the recommendation. Because the OCE mission is
not well defined, OCE can not structure a reasonable sampling methodology to
help ensure that the mission is accomplished. Once OCE redefines and clarifies
its mission statement as required by the Strategic Directions document, a
reasonable sampling method can then be developed. We disagree that
determining the level of non-compliance has little value for compliance purposes.
By knowing the level of compliance, management can take specific actions to
improve the level if there is a high level of non-compliance; or, assuming a high



                                       13
level of compliance, the sampling methodology may be modified and the number
and length of on-site visits reduced. Specific management actions taken will be
assessed by the OIG when evaluating management’s implementation of the
Strategic Directions document.         Therefore, the OIG considers this
recommendation closed.


Recommendation 6. Develop processes to assess the reliability of the CSR self-
inspection error rate reported by the grantee.

Management Comments -- Recommendation 6. LSC management stated:

      “LSC currently assists grantees with their self-inspections by
      reviewing cases, indicating where the self inspections have failed to
      identify errors, and working with grantees to improve their self-
      inspection processes. As indicated in the answer to the previous
      recommendation, LSC will review the usefulness of verifying a
      grantee’s self-reported error rate.”

Evaluation of Management Comments. Management comments are responsive
to the intent of the recommendation in that management stated the usefulness of
verifying a grantee’s self-reported error rate will be reviewed. However, we do
not agree that the current process assesses or evaluates grantee’s self-
inspection processes. While OCE does review cases, OCE does not employ the
same selection process nor assess the self-inspection process that the grantee
used. Thus, OCE can not comment with any authority as to grantee’s application
of the self-inspection process. In the reports reviewed, we could not find any
specific evaluations of the grantee self-inspection process. However, the actions
that will be taken as a result of implementing LSC’s new Strategic Directions
document should address the intent of this recommendation.               Specific
management actions taken will be assessed by the OIG when evaluating
management’s implementation of the Strategic Directions document. Therefore,
the OIG considers this recommendation closed.


Leveraging Oversight Information. Information gained through on-site visits and
provided through on-site training has not been widely disseminated to all
grantees. By leveraging information and sharing the information with all
grantees, OCE resources can be applied in a more efficient and effective
manner, and in the long run, at lower cost while at the same time improving
grantee compliance nationwide.

1. Summary of Review Results. OCE has not taken action to leverage the
information obtained from on site-visits to improve overall grantee compliance or
to reduce costs in providing oversight. The current OCE on-site review process
has been in place for approximately 6 years. However, OCE could not provide



                                       14
any documented summary analysis of compliance issues detailing trends or
patterns of noncompliance that may exist in the grantee population. By
leveraging information and sharing the information with all grantees, OCE
resources can be applied in a more efficient and effective manner, and in the
long run, at lower cost while at the same time improving overall grantee
compliance.

2. On-Site Training at Grantees. Providing training to grantees can increase the
level of grantee compliance. However, OCE did not routinely make its training
material available to all grantees or fully document the training provided. OCE
was unable to provide us with agendas, syllabi and/or training materials for most
training sessions conducted. However, OCE represented that the training
sessions involved the LSC Act, regulations and CSR materials. Additionally,
training methods not requiring on-site travel (such as video conferencing, live
web casts, telephone, videotape presentations, etc.) were not developed. These
methods could have reached a larger number of grantees at potentially lower
cost.

During the period of review, 10 of the on-site visits conducted by OCE were for
accountability training17 of grantee directors and/or staff. Normally these on-site
training visits involved one to two OCE staff members, were varied in length, and
were conducted at the grantee’s offices. Based on the material provided by
OCE, some of the training sessions would last less than four hours. Because the
training presentations were not always documented, we were unable to
determine whether this was an efficient and effective use of the resources, what
actually was being taught at each training session; and whether there was
consistency in the training presentations.

Adequately documenting training provided and making the material available to
all grantees increases the value of training by ensuring consistency in what is
taught and by allowing grantees to conduct their own training. Developing a
strong, multifaceted training program helps ensure that necessary information
reaches a broad audience in a timely manner and at a reduced cost.

Recommendations. The LSC President should instruct OCE to

Recommendation 7. Develop internal processes to summarize the grantee
compliance information it gathers and provide the summary information to all
grantees;



17
  Accountability training as defined by OCE are on-site visits to grantees in order to train staff on
compliance related issues such as: applicant intake, including eligibility, duplication, and conflicts;
case acceptance; case management; case closures; and Private Attorney Involvement. Grantees
who receive this training are identified through: referrals; previous training; State-wide
conferences; and recommendations by OCE resulting from grantees visited.


                                                 15
Management Comments -- Recommendation 7. LSC management stated:

      “Currently, LSC does have internal processes that it uses to
      summarize grantee compliance and that information is used by
      OCE staff in their work with grantees. As part of its development of
      Strategic Directions 2006-2010, LSC is considering several
      different approaches to training and technical assistance for
      grantee programs on compliance issues.”

Evaluation of Management Comments. Management comments do not address
the intent of the recommendation. During the audit, we were not informed by
management of internal processes utilized to summarize overall grantee
compliance, nor were we provided any of the summaries. Also, management
comments did not address providing summaries to all grantees so that grantees
can see what concerns are being identified. Providing summaries of findings to
all grantees is a proactive approach to assessing compliance issues as opposed
to a reactive approach resulting from an OCE on-site visit that may occur every 7
years if at all. Being proactive will also help improve the overall level of
compliance since all grantees would be able to address similar issues found at
other locations long before a visit by OCE. This in turn would amplify the value of
OCE’s work. However, we are not pursuing this recommendation through the
resolution process because the Strategic Directions initiative of developing
several different approaches to training and technical assistance should address
the intent of this recommendation.         Therefore, the OIG considers this
recommendation closed.


Recommendation 8. Document training provided to grantees and make the
information available to all grantees; and

Management Comments -- Recommendation 8. LSC management stated:

      “LSC agrees that compliance training is a critical function of its
      responsibilities. For that reason, OCE staff currently provides and
      documents compliance training to grantees. As noted in the LSC
      response to Recommendation 7, LSC is considering several
      different approaches to training and technical assistance for
      grantee programs on compliance issues.”

Evaluation of Management Comments.            Management comments are not
responsive to the recommendation. The finding and recommendation is not
addressing documenting that training occurred. The finding noted that the
content of the training was not documented. During the audit, OCE was unable
to provide us with specific agendas, syllabi and/or training material for most of
the training sessions conducted. The intent of the recommendation was to
require that OCE document the content of each training session and make that



                                        16
training material available to all grantees. This would leverage the value of
training and conceivably reduce the cost of training. Because LSC is considering
several different approaches to training and technical assistance as part of the
Strategic Directions initiative, this recommendation will not be pursued through a
resolution process; therefore the OIG considers this recommendation as closed.


Recommendation 9. In conjunction with other offices within LSC, develop
alternative training models that will be capable of serving more grantees in an
efficient and effective manner.

Management Comments -- Recommendation 9. LSC management stated:

      “LSC already uses training as a tool to enhance grantees ability to
      achieve full compliance with LSC requirements. As noted in the
      LSC responses to Recommendations 7 and 8, as part of its
      development of Strategic Directions 2006-2010, LSC is considering
      several additional approaches to training and technical assistance
      for grantee programs on compliance issues. LSC intends to
      continue to make substantial use of available technologies to
      develop different models and expand OCE’s ability to train more
      grantees in more efficient and effective ways.”

Evaluation of Management Comments. Management comments are responsive
to the finding and recommendation. Closed.

Reporting of Results from On-Site Reviews. OCE’s current report writing
process is not effective and efficient. The reports do not provide the information
necessary to get a clear understanding of the significance of each finding, are
cumbersome, and take too long to complete. Because of OCE’s practice of
reporting all findings regardless of their significance, we were unable to discern
what findings in the report LSC management considered to be significant.

1. Significance of Findings. The reports did not contain enough information to
clearly understand the significance or frequency of the findings. For example,
the report did not generally provide specific data regarding the number of
deficiencies found versus the number of cases reviewed. Rather, the report
would include subjective terms such as “many,” “several,” or “a few.” If samples
were selected from multiple years, the report did not disclose whether the errors
were from the current year or prior years. Thus, the report did not indicate
whether the error occurred because of past practices that have now been
corrected or whether current practices needed to be improved.

2. Reporting. The reports we reviewed were quite voluminous, averaging a
length of 29 pages, exclusive of the attached grantee comments. The reports
included both positive and negative findings, together with a description of the



                                       17
respective condition. The reports provided by OCE detailed 564 findings,18 of
which almost 56% (or 314) were positive findings, i.e., ones that did not identify
deficiencies but instead concluded general adherence to the prescribed
regulation or CSR practice. Of the remaining 250 findings that reported
deficiencies, 109 (19% of total findings) related to adherence to the CSR
Handbook and other matters, and 141 (25% of total findings) related to regulatory
compliance. Of the 141 negative findings relating to regulatory compliance, 95
(or 67%) involved just two regulations--Financial Eligibility (45 CFR Part 1611)
and Private Attorney Involvement (45 CFR Part 1614). According to OCE
management, all findings are reported regardless of their overall significance.
Because of this practice, the number of findings contained in each report ranged
from a low of 12 to a high of 28. Rather than focusing on the areas where the
grantee needed improvement, the report detailed results of the work performed
by OCE. Consequently, the product appeared to be one that was documenting
the work of OCE as opposed to providing the grantee with a coherent concise
summary of areas needing improvement.

3. Timeliness of Reports. OCE’s standard practice is to issue reports for all
CSR/CMS reviews and follow-up reviews.19 Of the 20 CSR/CMS reviews
conducted during our period of review, 16 final reports have been issued as of
August of this year. The length of time from conclusion of the on-site visit to the
date of issuance of the final report ran from 4 to 17 months, with an average time
of 8.5 months. Of the seven follow-up reviews conducted during our period of
review, all seven final reports had been issued.20 The length of time from
conclusion of the on-site follow-up visit to the date of issuance of the final report
runs from one-half to eleven months, with an average time of 3.6 months.
Various reasons were provided by OCE to explain the delay in the issuing the
reports such as OCE workload, late receipt of comments from grantees, LSC

18
   We identified the findings contained in 26 OCE reports provided to us. These reports were
from the following types of visits:

            •   CSR / CMS Reviews – 17
            •   CSR / CMS Follow-up Reviews -- 7
            •   OPP / OCE Joint Reviews -- 2

In addition, data from 3 of the CSR/CMS reviews were taken from OCE prepared one-page
summary sheets because the draft reports had not been made available.

Finally, as part of this audit, we did not review OCE’s files containing supporting documentation.
Our analysis is based solely on the information provided in the report or in the OCE prepared
summary memorandum.
19
  Conversations with OCE staff indicated that OCE attempts to maintain a time schedule for this
report writing process. Each individual report is expected to be prepared within 10 days of the
team member’s return from the on-site review. The team report is expected to be prepared by
the team leader within 30-45 days of the return of the team from the on-site review.
20
 We note that as defined by OCE, the follow-up reviews come about as the result of a
CSR/CMS review. As we understand the process, a separate report is issued for each review.


                                                18
executive management review, and the time necessary to obtain legal opinions
on some findings. Timely reporting of results helps ensure that deficiencies are
promptly communicated and quickly corrected.

Recommendations. The LSC President should instruct OCE to

Recommendation 10. Include in reports information that gives the reader a clear
understanding of the significance and frequency of findings;

Management Comments -- Recommendation 10. LSC management stated:

      “LSC will always work to improve the quality of the narrative of its
      reports.    LSC disagrees that a 29-page report per se is
      “voluminous.” There are several different kinds of readers of the
      OCE reports who must have sufficient detail in the reports:
      grantees - to assess the evaluation; OCE – to have a record for
      follow up evaluation; and LSC staff – who do other types of
      program visits and assessments. LSC disagrees that readers of its
      reports are unable to determine the significance and frequency of
      findings. All compliance reports, where appropriate, have both
      “corrective actions” which require action by the grantee to cure
      items of non-compliance, and “recommendations” that are
      additional suggestions on improvements that do not rise to the level
      of non-compliance but are offered as best practices. LSC clearly
      enumerates in its reports the corrective actions that are required for
      a grantee to achieve compliance.”

Evaluation of Management Comments.              Management comments are not
responsive to the intent of the recommendation. The reports provide no
perspective as to the number of times a specific type of error occurred, or how
current the errors were. Thus the reader has no way of assessing the
significance of a finding, nor does the reader know if the errors occurred recently
or many months ago. Knowing whether an error occurred 10 times out of 40
carries a different meaning than 10 errors out of 1,000. Ten errors out of 40
cases closed over the last six months carries a different meaning than 10 errors
out of 1,000 cases if all of the errors occurred 18 months ago. While we believe
that providing perspective as to the frequency and currency of errors is valuable
to management, it is ultimately up to management to decided on the information
to include in its reports. Therefore, this recommendation will not be pursued
through a resolution process and is considered closed


Recommendation 11. Develop a report writing format that is briefer by
summarizing areas of substantial compliance and focusing on reporting
significant issues requiring improvement by the grantee; and




                                        19
Management Comments -- Recommendation 11. LSC management stated:

      “As indicated in the LSC response to Recommendation 10, LSC
      will always work to improve the quality of the narrative of its reports.
      Also as indicated in the response to Recommendation 10, LSC
      disagrees that a 29-page report per se is voluminous.” The more
      complete explanation of compliance currently provided in the OCE
      reports better suits the purpose of the grantee in understanding the
      findings and better suits the needs of LSC in reporting compliance
      issues to Congress.”


Evaluation of Management Comments. Management comments are responsive
to the finding and recommendation. Closed.


Recommendation 12. Develop a reporting process that will permit OCE to issue
its reports in a timelier manner.

Management Comments -- Recommendation 12. LSC management stated:

      “LSC agrees that it should improve the timeliness of its issuance of
      reports and has identified that function as an area of needed
      improvement in its Strategic Directions 2006-2010.”

Evaluation of Management Comments. Management comments are responsive
to the finding and recommendation. Closed.




                                        20
APPENDIX I
                  MANAGEMENT COMMENT -- ANALYSIS
In addition to comments on each recommendation, Management provided
additional comments in a separate section entitled “ANALYSIS” that
addressed two areas—authority of LSC to conduct compliance reviews
and the LSC president’s and Board Chairman’s congressional testimony.
Our evaluation of Management comments for each of these areas is
presented below.

Management Comment on LSC’s Authority to Conduct Compliance
Reviews.

       “In the draft Interim Report, the OIG suggests that the 1996
       Appropriations Act transferred the authority for compliance
       oversight to the OIG. The Inspector General stated his views
       on the subject clearly: “Congress gave that responsibility
       [referring to compliance oversight] to my office and only my
       office. So that is not even negotiable unless Congress
       changes it. It basically says only the IG shall have oversight
       of this whole process.”21 This is incorrect. Although the
       1996 Appropriations Act authorized the OIG “to conduct on-
       site monitoring, audits, and inspections in accordance with
       Federal standards,”22 there is nothing within this Act or any
       subsequent Act which confers to the OIG exclusive
       jurisdiction over compliance reviews, audits, inspections or
       other monitoring. In addition, there is nothing within the Act
       or any subsequent legislation which abrogates or vitiates
       LSC’s statutory requirement to “insure compliance.”23 “


21
   Statements of LSC Inspector General, Kirt West, made at the February 4, 2005 LSC
Operations and Regulations Committee Meeting. Transcript, page 87.
22
   See Section 509(g).
23
   See, among others, the following provisions in the LSC Act:

       The Corporation shall have the authority to insure the compliance of recipients and their
       employees with the provisions of this title and the rules, regulations, and guidelines
       promulgated pursuant to this title (42 U.S.C. § 2996e (b)(1)(A));

       The Corporation shall insure the maintenance of the highest quality of service and
       professional standards, the preservation of attorney-client relationships, and the
       protection of the integrity of the adversary process from any impairment in furnishing
       legal assistance to eligible clients (Section 1007(a)(1));

       The Corporation shall insure that grant and contracts are made so as to provide the most
       economical and effective delivery of legal assistance to persons in both urban and rural
       areas (Section 1007 (a)(3)); and



                                              1
               “In fact, the section immediately succeeding the section in
       the 1996 Appropriations Act granting the OIG the authority to
       conduct monitoring expressly gives access to “any auditor or
       monitor of the Corporation” to “financial records, time records,
       retainer agreements, client trust fund and eligibility records, and
       client names.”24

             Also, in House Rpt. 106-1005 accompanying the
       Consolidated Appropriations Act 2001, it was expressly provided
       that:

               Within the amounts provided for management and
               administration, the Corporation is expected to hire at
               least seven investigators for the Compliance and
               Enforcement Division to investigate field grantees'
               compliance with the regulations grantees agreed to
               abide by when accepting Federal funding.”

               By mandates, LSC, through OCE, has a significant statutory
         responsibility for ensuring compliance of grantees. Both the facts
         and the law cited above run counter to the draft Interim Report’s
         misstatement of the law with respect to the authority of LSC
         management to conduct compliance reviews. LSC recommends
         that the IG revise this erroneous restatement of authority found
         throughout the draft Interim Report.

               We firmly believe that the current compliance work engaged
         in by OCE is of high quality, enables LSC to identify and correct
         compliance issues of grantees, is a critical function and
         responsibility of LSC, and is not supplanted by the Independent
         Public Accountants’ compliance work in the audit process which is
         currently the responsibility of the OIG. As noted by the IG, “What
         we're finding out is when we go and look at how [the IPA’s are]
         doing it, they're just not getting it. They don't understand the
         significance of ensuring compliance with the restrictions…”25
         Thus, LSC can only rely on the compliance work of OCE to meet
         LSC’s congressionally mandated compliance oversight.”

       The Corporation shall monitor and evaluate and provide for independent evaluations of
       programs supported in whole or in part under this title to insure that the provisions of this
       title and bylaws of the Corporation and applicable rules, regulations, and guidelines
       promulgated pursuant to this title are carried out (Section 1007 (d)).
24
 See Section 509(h).
25
 Testimony of LSC Inspector General, Kirt West, before the LSC Finance Committee on
October 28, 2005. Transcript, page 35.



                                                2
Evaluation of Management Comments on Authority of LSC to Conduct
Compliance Reviews. Noted. As an initial matter, without getting into the
substance of the issue, we disagree that the report suggests that the 1996
appropriations act transferred exclusive authority for compliance oversight to the
OIG. Additionally, management’s inclusion of a partial quotation of the IG’s
presentation at the February 2005 meeting of the Board’s Operations and
Regulations Committee is inappropriate: it takes the statement out of context to
suggest something the IG did not in fact state. The IG’s statement regarding the
OIG’s exclusive oversight authority with respect to compliance clearly referred to
the IPA process mandated by section 509 of the 1996 appropriation act, over
which Congress in fact gave the OIG exclusive authority. As to the remainder of
management’s comments, we neither agree nor disagree. This report does not
address the authority of LSC to conduct compliance reviews. Rather, the draft
report concludes that OCE’s on-site work related to grantee compliance largely
duplicates the compliance work conducted annually by IPAs. Because the issue
of authority in conjunction with this duplication of work is not fully developed in
this report, it would be inappropriate to enter into a full discussion on these
issues.      Therefore, the issues of authority and duplication of work will be
addressed in a subsequent report.



Management Comment on LSC President and Board Chairman’s
Congressional Testimony

              “In the draft Interim Report, the OIG infers that the Chairman
      of the LSC Board and the LSC President made false statements
      when they testified about the work of OCE. The draft Interim
      Report reads as follows: “In testimony submitted to Congress in
      April 2004, LSC stated that grantees are subject to random
      compliance reviews. However, OCE’s selection process is not
      random.” The actual testimony of LSC was just the opposite. In
      discussing the OCE compliance review process, LSC stated: “OCE
      selects programs for onsite review based on a combination of a
      number of criteria, including complaints of non-compliance,
      referrals from the Office of the Inspector General, a considerable
      change from one year to the next in Case Services Reports, and
      other indications. Since 2001, LSC has also had the authority to
      conduct random compliance reviews.” At no time did LSC indicate
      that its only process for selecting grantees for compliance reviews
      was a random selection process and in fact, noted only that it had



                                        3
       the authority to conduct random reviews – not that it did random
       reviews.”

Evaluation of Management Comments on LSC President’s And Board
Chairman’s Congressional Testimony.

The OIG did not mischaracterize the Congressional testimony. In fact, the OIG
characterized the Congressional testimony as follows: “…LSC stated that
grantees are subject to random compliance reviews.” By stating in the testimony
“Since 2001, LSC has also had the authority to conduct random compliance
reviews.,” LSC implied that grantees are in fact randomly selected from time to
time. That portion of the testimony concerns OCE’s selection of grantees for
review and LSC’s statement concerning randomness goes to the selection
process; there would be no reason for the statement otherwise. In addition, the
OIG did not suggest that LSC stated that random selection was the only LSC
process. To the contrary, the OIG report includes the other factors OCE stated
that it uses. The fact remains that LSC does not use a random process. Even
though LSC identified other criteria in its testimony that may be used to select
grantees for compliance reviews, the list of other criteria does not mitigate the
misperception that may arise that each grantee has an equal probability of being
selected for a compliance review.

As the finding indicates, OCE does not use a random selection process but
rather, OCE can seemingly arbitrarily include or exclude any grantee from a
compliance review because the process used is not well defined and
documented. Thus, LSC is vulnerable to criticism that the selection process is
subject to bias and that it is inefficient and wasteful. However, to address
management’s concern that the LSC President’s and the Board Chairman’s
congressional testimony was mischaracterized and to ensure that attention is not
drawn away for the intent of the finding, we have included in the finding the full
text of the relevant testimony as quoted in management comments.

LSC Management Response to Draft Audit Report. The complete text of LSC’s
response to the draft audit report is incorporated in its entirety in this report as
Appendix I.




                                         4
APPENDIX II
                            MEMORANDUM


TO:          Kirt West

FROM:        Helaine M. Barnett

DATE:        December 16, 2005

SUBJECT:     LSC Management Response to OIG Draft Interim Report on Management
             Oversight of Grantees—Office of Compliance and Enforcement


        The Office of the Inspector General (OIG) submitted to LSC management
a draft Interim Report on Management Oversight of Grantees - Office of
Compliance and Enforcement on October 14, 2005. The attached document is
LSC management’s response to that draft.

        LSC management is committed to the efficient and effective management
of the Corporation, including the compliance work of the Office of Compliance
and Enforcement. As is noted in our responses to the recommendations of the
draft Interim Report, LSC is currently engaged in a review and planning process
as part of the development of Strategic Directions 2006-2010. Previous to
receipt of the recommendations of the draft Interim Report, LSC had begun to
consider many of the issues raised therein. LSC management is continuing its
review and planning process and will respond more fully to your analysis after
your capping report is complete and after our planning process is complete.




cc:   Victor Fortuno
       Charles Jeffress
      Karen Sarjeant




                                       1
                       MANAGEMENT RESPONSE
                TO THE OFFICE OF INSPECTOR GENERAL’S
                        DRAFT INTERIM REPORT
               ON MANAGEMENT OVERSIGHT OF GRANTEES
               OFFICE OF COMPLIANCE AND ENFORCEMENT

                        RESPONSE TO RECOMMENDATIONS

      The draft Interim Report on Management Oversight of Grantees – Office
of Compliance and Enforcement (Interim Report,) listed twelve recommendations
from the OIG to LSC Management. Detailed below are LSC Management’s
responses to those twelve recommendations.

Recommendation 1: Better define the mission of OCE in regard to its
compliance work. LSC is in process of adopting Strategic Directions 2006-2010
for the Corporation. The mission and goals in that draft document clearly define
expectations for each of the Corporation’s offices, including OCE. When the
Strategic Directions document is adopted by the LSC Board in early 2006, each
office, including OCE, will be reviewing prior statements of mission, goals, and
objectives to assure consistency with the Board-approved mission for the
organization.

Recommendation 2: Develop an outcome-based measurement system to
determine whether OCE is accomplishing its mission. Outcome measures
are inherently built into the compliance reporting procedures followed by LSC
programs. For instance, current measures in place are timetables, assurances
and reports. Other measures under consideration in the strategic directions
process include the percent of in-compliance findings from OCE visits, and the
timeliness and degree of resolution of OCE corrective action notices. LSC will
continue to develop these outcome measures for compliance purposes. As part
of its development of Strategic Directions 2006-2010, LSC is considering a range
of additional outcome measures.

Recommendation 3: Instruct OCE to develop a system to track all costs
(including OCE staff and management time) associated with OCE activities
related to on-site reviews and training. All costs are being tracked for OCE
compliance work. The total cost of OCE compliance work is available through
the LSC budget process and LSC can compare the amount of compliance work
done and the cost of doing such work. No business necessity exists for keeping
individual time records simply to track the cost of each visit. The administrative
burden of such a system is not worth the minimal value gained.

Recommendation 4: Develop and document a selection process that
ensures that grantees are reviewed over a reasonable period of time and
that meets OCE’s overall mission requirements. LSC agrees that all grantees
should be reviewed over a reasonable period of time. As part of its development
of Strategic Directions 2006-2010, LSC is engaging in a fresh look at its selection
process for program visits. Many factors are considered in the selection process
and LSC is considering the relative importance of each factor in concert with
LSC’s clear statutory and regulatory obligations.

Recommendation 5: Develop a case sampling methodology that will
efficiently and effectively permit OCE to obtain reliable data in support of
its mission goal. The OIG recommendation with respect to case sampling is
useful if LSC needs to verify a grantee’s self-reported error rate. LSC will review
this need and determine to what extent that is a priority. As far as reviewing
cases at the grantee level, LSC affirms that, as stated by the OIG, “The sampling
methods appear to be structured to find evidence of non-compliance rather than
assessing the level of compliance…” In monitoring grantees, LSC seeks to
determine whether or not there is non-compliance with LSC regulations, and, if
so, to have it corrected. Determining the exact level of non-compliance, whether
it is 2% or 3%, has little value for compliance purposes.

Recommendation 6: Develop processes to assess the reliability of the CSR
self-inspection error report rate by the grantee. LSC currently assists
grantees with their self-inspections by reviewing cases, indicating where the self
inspections have failed to identify errors, and working with grantees to improve
their self-inspection processes. As indicated in the answer to the previous
recommendation, LSC will review the usefulness of verifying a grantee’s self-
reported error rate.

Recommendation 7: Develop internal processes to summarize the grantee
compliance information it gathers and provide the summary information to
all grantees. Currently, LSC does have internal processes that it uses to
summarize grantee compliance and that information is used by OCE staff in their
work with grantees. As part of its development of Strategic Directions 2006-
2010, LSC is considering several different approaches to training and technical
assistance for grantee programs on compliance issues.

Recommendation 8: Document training provided to grantees and make the
information available to all grantees. LSC agrees that compliance training is a
critical function of its responsibilities. For that reason, OCE staff currently
provides and documents compliance training to grantees. As noted in the LSC
response to Recommendation 7, LSC is considering several different approaches
to training and technical assistance for grantee programs on compliance issues.

Recommendation 9: In conjunction with other offices within LSC, develop
alternative training models that will be capable of serving more grantees in
an efficient and effective manner. LSC already uses training as a tool to
enhance grantees ability to achieve full compliance with LSC requirements. As
noted in the LSC responses to Recommendations 7 and 8, as part of its
development of Strategic Directions 2006-2010, LSC is considering several
additional approaches to training and technical assistance for grantee programs
on compliance issues. LSC intends to continue to make substantial use of
available technologies to develop different models and expand OCE’s ability to
train more grantees in more efficient and effective ways.

Recommendation 10: Include in reports information that gives the reader a
clear understanding of the significance and frequency of findings. LSC will
always work to improve the quality of the narrative of its reports. LSC disagrees
that a 29-page report per se is “voluminous.” There are several different kinds of
readers of the OCE reports who must have sufficient detail in the reports:
grantees - to assess the evaluation; OCE – to have a record for follow up
evaluation; and LSC staff – who do other types of program visits and
assessments. LSC disagrees that readers of its reports are unable to determine
the significance and frequency of findings. All compliance reports, where
appropriate, have both “corrective actions” which require action by the grantee to
cure items of non-compliance, and “recommendations” that are additional
suggestions on improvements that do not rise to the level of non-compliance but
are offered as best practices. LSC clearly enumerates in its reports the
corrective actions that are required for a grantee to achieve compliance.

Recommendation 11: Develop a report writing format that is briefer by
summarizing areas of substantial compliance and focusing on reporting
significant issues requiring improvement by the grantee. As indicated in the
LSC response to Recommendation 10, LSC will always work to improve the
quality of the narrative of its reports. Also as indicated in the response to
Recommendation 10, LSC disagrees that a 29-page report per se is voluminous.”
The more complete explanation of compliance currently provided in the OCE
reports better suits the purpose of the grantee in understanding the findings and
better suits the needs of LSC in reporting compliance issues to Congress.

Recommendation 12: Develop a reporting process that will permit OCE to
issue its reports in a timelier manner. LSC agrees that it should improve the
timeliness of its issuance of reports and has identified that function as an area of
needed improvement in its Strategic Directions 2006-2010.

                                    ANALYSIS

       LSC has reviewed the draft Interim Report and has determined that there
are two issues for which LSC is responding at this time: 1) the OIG challenging
the authority of LSC management to conduct compliance reviews; and 2) the
mischaracterization of the LSC President’s and Board Chairman’s congressional
testimony.

       There are other conclusions in the report for which LSC is not now
responding. This is because the issues are not yet sufficiently developed or “ripe”
for response. This approach is taken because the OIG has stated that it will
develop a complete report on these critical issues and their interrelation with
each other in their proposed “capping report.” Once that is done, LSC will have
the opportunity to respond more fully to the entirety of the report rather than give
incomplete responses to several individual, incomplete interim reports.

        LSC believes that this approach is appropriate and less likely to lead to
misunderstandings because not all of the facts were presented at the time of the
LSC response.       In support of this approach, LSC draws on the OIG’s
recommendation regarding the most significant issue of duplication of
compliance review processes.            The draft Interim Report proposes:
“Recommendations addressing duplication of oversight will be addressed in
OIG’s capping report once reviews of other LSC offices involved in oversight
activities are complete.” At another point in the draft Interim Report, the OIG
notes “As other LSC functions are reviewed, we will continually assess if any
duplication of oversight exists among all offices providing oversight.” Given the
likelihood that there will be additional recommendations from the OIG, LSC is
adopting the OIG’s approach by reserving LSC’s complete comments until
receipt of the draft final capping report which is expected to be the audit
document.

       On the other hand, LSC believes that it is appropriate to address in this
immediate response the two issues from the draft Interim Report previously
noted.

       LSC’s Authority to Conduct Compliance Reviews. In the draft Interim
Report, the OIG suggests that the 1996 Appropriations Act transferred the
authority for compliance oversight to the OIG. The Inspector General stated his
views on the subject clearly: “Congress gave that responsibility [referring to
compliance oversight] to my office and only my office. So that is not even
negotiable unless Congress changes it. It basically says only the IG shall have
oversight of this whole process.”26 This is incorrect. Although the 1996
Appropriations Act authorized the OIG “to conduct on-site monitoring, audits, and
inspections in accordance with Federal standards,”27 there is nothing within this
Act or any subsequent Act which confers to the OIG exclusive jurisdiction over
compliance reviews, audits, inspections or other monitoring. In addition, there is
nothing within the Act or any subsequent legislation which abrogates or vitiates
LSC’s statutory requirement to “insure compliance.”28


26
   Statements of LSC Inspector General, Kirt West, made at the February 4, 2005 LSC
Operations and Regulations Committee Meeting. Transcript, page 87.
27
   See Section 509(g).
28
   See, among others, the following provisions in the LSC Act:

       The Corporation shall have the authority to insure the compliance of recipients and their
       employees with the provisions of this title and the rules, regulations, and guidelines
       promulgated pursuant to this title (42 U.S.C. § 2996e (b)(1)(A));
        In fact, the section immediately succeeding the section in the 1996
Appropriations Act granting the OIG the authority to conduct monitoring expressly
gives access to “any auditor or monitor of the Corporation” to “financial records,
time records, retainer agreements, client trust fund and eligibility records, and
client names.”29

      Also, in House Rpt. 106-1005 accompanying                                the    Consolidated
Appropriations Act 2001, it was expressly provided that:



          “Within the amounts provided for management and administration, the
          Corporation is expected to hire at least seven investigators for the
          Compliance and Enforcement Division to investigate field grantees'
          compliance with the regulations grantees agreed to abide by when
          accepting Federal funding.”

        By mandates, LSC, through OCE, has a significant statutory responsibility
for ensuring compliance of grantees. Both the facts and the law cited above run
counter to the draft Interim Report’s misstatement of the law with respect to the
authority of LSC management to conduct compliance reviews. LSC recommends
that the IG revise this erroneous restatement of authority found throughout the
draft Interim Report.

        We firmly believe that the current compliance work engaged in by OCE is
of high quality, enables LSC to identify and correct compliance issues of
grantees, is a critical function and responsibility of LSC, and is not supplanted by
the Independent Public Accountants’ compliance work in the audit process which
is currently the responsibility of the OIG. As noted by the IG, “What we're finding
out is when we go and look at how [the IPA’s are] doing it, they're just not getting
it. They don't understand the significance of ensuring compliance with the


          The Corporation shall insure the maintenance of the highest quality of service and
          professional standards, the preservation of attorney-client relationships, and the
          protection of the integrity of the adversary process from any impairment in furnishing
          legal assistance to eligible clients (Section 1007(a)(1));

          The Corporation shall insure that grant and contracts are made so as to provide the most
          economical and effective delivery of legal assistance to persons in both urban and rural
          areas (Section 1007 (a)(3)); and

          The Corporation shall monitor and evaluate and provide for independent evaluations of
          programs supported in whole or in part under this title to insure that the provisions of this
          title and bylaws of the Corporation and applicable rules, regulations, and guidelines
          promulgated pursuant to this title are carried out (Section 1007 (d)).
29
     See Section 509(h).
restrictions…”30 Thus, LSC can only rely on the compliance work of OCE to
meet LSC’s congressionally mandated compliance oversight.

        Mischaracterization of LSC President’s and Board Chairman’s
Congressional Testimony. In the draft Interim Report, the OIG infers that the
Chairman of the LSC Board and the LSC President made false statements when
they testified about the work of OCE. The draft Interim Report reads as follows:
“In testimony submitted to Congress in April 2004, LSC stated that grantees are
subject to random compliance reviews. However, OCE’s selection process is not
random.” The actual testimony of LSC was just the opposite. In discussing the
OCE compliance review process, LSC stated: “OCE selects programs for onsite
review based on a combination of a number of criteria, including complaints of
non-compliance, referrals from the Office of the Inspector General, a
considerable change from one year to the next in Case Services Reports, and
other indications. Since 2001, LSC has also had the authority to conduct random
compliance reviews.” At no time did LSC indicate that its only process for
selecting grantees for compliance reviews was a random selection process and
in fact, noted only that it had the authority to conduct random reviews – not that it
did random reviews.

      LSC management is continuing its review and planning process and will
respond more fully to the OIG’s analysis after the OIG’s capping report is
complete and after our planning process is complete.


                                                     Dated: December 16, 2005




30
 Testimony of LSC Inspector General, Kirt West, before the LSC Finance Committee on
October 28, 2005. Transcript, page 35.
